No. 19-373
IN THE

~upreme Qtourt of tbe Wniteb ~tateg
JAMES WALKER,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of January, 2020, I caused three copies of the Brief of F AMM as
Amicus Curiae in Support of Petitioner to be served by third-party commercial carrier
on the counsel identified below, and caused an electronic version to be transmitted to
the counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.
Kannon K. Shanmugam
PAUL, WEISS, RIFKIND, WHARTON

&

Noel J. Francisco
SOLICITOR GENERAL

Washington, DC 20006

(202) 223-7300
kshanmugam@paulweiss.com

U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave, NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner

Counsel for Respondent

GARRISON LLP

2001 KSt,NW

